1a
943 F.3d 988
United States Court of Appeals, Fifth Circuit.
Aleashia CLARKSTON; Kingdom Builders
Community Development Corporation,
Plaintiffs-Appellants,
v.
John WHITE, in His Individual Capacity
as Superintendent of the Louisiana
Department of Education, Defendant-Appellee.
No. 18-31099
|
FILED December 4, 2019
Attorneys and Law Firms
Joseph Arthur Smith, III, Esq., Smith Law Firm, Baton
Rouge, LA, for Plaintiffs-Appellants.
Christopher Neal Walters, Assistant Attorney General,
Louisiana Department of Justice, Baton Rouge, LA,
Theresa Cassidy Phillips, Assistant Attorney General,
Louisiana Department of Justice, Litigation Division,
Baton Rouge, LA, Jeffery A. Wheeler, II, Esq., Assistant
Attorney General, Louisiana Department of Justice,
Litigation Division, New Orleans, LA, for DefendantAppellee.
Before OWEN, Chief Judge, SMITH and DENNIS, Circuit Judges.
PER CURIAM:
Treating the petition for rehearing en banc as
a petition for panel rehearing, the petition for panel

2a
rehearing is DENIED. No member of the panel or
judge in regular active service having requested that
the court be poled [sic] on rehearing en banc (Federal
Rule of Appellate Procedure 35 and Fifth Circuit Rule
35), the petition for rehearing en banc is DENIED.
The opinion issued October 25, 2019, is VACATED,
and the following opinion is substituted, the only
change being to add language to footnote 5:
** * * *
Opinion
JERRY E. SMITH, Circuit Judge:
Kingdom Builders Community Development Corporation (“Kingdom Builders”) and its CEO, Aleashia
Clarkston, sued John White, the Superintendent of the
Louisiana Department of Education (“LDOE”), alleging that White caused the denial of Kingdom Builders’s
charter school application in retaliation for Clarkston’s
expressing her views on disciplinary practices—including corporal punishment—on the nationally televised show America’s Supernanny. Plaintiffs sought
damages via a 42 U.S.C. § 1983 claim for First Amendment retaliation and a state retaliation claim per article I, section 7 of the Louisiana Constitution. The
district court held that Clarkston had “failed to state a
valid claim for retaliation.” We affirm on a different
ground.

3a
I.
In June 2015, Kingdom Builders submitted a charter school application to the Lafayette Parish School
Board, which the board denied. Plaintiffs appealed to
the Louisiana Board of Elementary and Secondary Education (“BESE”).1 In connection with that appeal, the
LDOE and SchoolWorks, a third-party evaluator contracted by the LDOE, evaluated plaintiffs’ application.
SchoolWorks recommended that the BESE approve
the application, but the LDOE—through White—recommended that the BESE deny it.2
Following the conflicting reports, the BESE deferred ruling on the appeal and directed White to hire
a third party to review his concerns with Clarkston’s
application. White contracted with Transcendent Legal to conduct that review. Transcendent Legal’s report
focused on “concerns specifically pertain[ing] to
whether or not the proposed school leader [(Clarkston)] possesse[d] the professional judgment necessary
to open and lead a high-performing charter school.”
Among those concerns was Clarkston’s appearance on
the television show America’s Supernanny, which “caused
the [LDOE] to question her professional judgment in
1

Under Louisiana law, a charter school must first submit its application to the local school board. LA. STAT. ANN.
§ 17:3983(A)(2)(a)(i). If the application is denied, the chartering group may appeal to the BESE. See id.
2
As Superintendent, White is responsible for “[m]ak[ing]
recommendations on contracts and agreements to be entered into
by the board.” Id. § 17:22(2)(b). The BESE—not the LDOE—has
the authority under state law to approve or deny a charter school
application. Id. § 17:3983(A)(3)(c).

4a
choosing to air her family’s disciplinary practices,” including the use of corporal punishment, “on national
television while representing herself as an educator.”
Applying six norms used by the National Policy
Board for Educational Administration,3 Transcendent
Legal examined Clarkston’s professionalism. It concluded that she exceeded expectations for one of the
professional norms, met expectations for two, and
failed to meet expectations for three. Transcendent Legal recognized that “[w]ithout question, Mrs. Clarkston’s deficiencies in any given norm resulted solely
from Mrs. Clarkston’s decision to participate in the reality show Supernanny and/or the related publicizing
of her participation in that television show just three
(3) short years ago.”
In March 2016, after reviewing the evaluations of
the School Board, SchoolWorks, and Transcendent Legal, the LDOE—through White—again recommended
that the BESE deny plaintiffs’ application. Highlighting
3

The standards asked whether Clarkston: (1) “act[ed] professionally in personal conduct, relationships with others, decisionmaking, stewardship of the school’s resources, and all aspects of
school leadership”; (2) “act[ed] according to and promote[d] the
professional norms of integrity, fairness, transparency, trust, collaboration, perseverance, learning, and continuous improvement”;
(3) “place[d] children at the center of education and accept[ed] responsibility for each student’s academic success and well-being”;
(4) “safeguard[ed] and promote[d] the values of democracy, individual freedom and responsibility, equity, social justice, community,
and diversity”; (5) “le[d] with interpersonal and communication
skill, social-emotional insight, and understanding of all students’
and staff members’ backgrounds and cultures”; and (6) “promote[d] professional behavior among faculty and staff.”

5a
that Transcendent Legal’s “report provide[d] mixed
conclusions regarding the professional judgment of the
proposed school leader that neither disqualifies nor
validates the Department’s concerns,” the LDOE emphasized that its “concerns serve not as definitive character statements, but rather as potential evidence of
issues that should give BESE pause before authorizing
the charter under the proposed leadership.”
After hearing from the LDOE, the BESE denied
plaintiffs’ application. Both sides now agree that the
BESE was the ultimate decisionmaker.
Plaintiffs brought claims for retaliation, alleging
violations of the First and Fourteenth Amendments
and article I, section 7 of the Louisiana Constitution.4
Plaintiffs contended that White took “action against
the Plaintiffs because he disagreed with opinions expressed by Mrs. Clarkston on a national television
show, ‘America’s Supernanny,’ in 2013 regarding corporal punishment of her own children.” They also
4

Article I, section 7 provides that “[n]o law shall curtail or
restrain the freedom of speech or of the press. Every person may
speak, write, and publish his sentiments on any subject, but is
responsible for abuse of that freedom.” LA. CONST. art. I, § 7.
“Louisiana’s constitutional protection of free speech mirrors that
of the First Amendment,” Heaney v. Roberts, 846 F.3d 795, 801
n.2 (5th Cir. 2017), and “the Louisiana Supreme Court would recognize the same [QI] defense for claims under Article I, Section 7,
that federal courts recognize for § 1983 First Amendment claims,”
id. Therefore, if “summary judgment is proper as to Plaintiffs’
First Amendment claims, summary judgment is also proper on
Plaintiffs’ Article I, § 7 state law claims.” Cripps v. La. Dep’t of
Agric. & Forestry, 819 F.3d 221, 231 (5th Cir. 2016). Accordingly,
the two claims are analyzed as a single issue.

6a
contended that “White’s opinion and recommendation
to the [BESE] was a motivating factor in the Board’s
decision to deny Kingdom Builders’ charter school application.”
White moved for summary judgment, asserting,
inter alia, the defense of qualified immunity (“QI”). The
district court granted the motion and dismissed plaintiffs’ claims with prejudice, finding that they had failed
to state a valid retaliation claim.
II.
We affirm on a basis different from the one relied
on by the district court. White is entitled to QI because,
at the time of his alleged violation, it was not clearly
established that First Amendment liability could attach to a public official who did not possess final decisionmaking authority. The district court did not reach
the QI inquiry, but this court may affirm for any reason
supported by the record, even if not relied on by the
district court. Palmer v. Waxahachie Indep. Sch. Dist.,
579 F.3d 502, 506 (5th Cir. 2009).
A.
Government officials “are entitled to [QI] under
§ 1983 unless (1) they violated a federal statutory or
constitutional right, and (2) the unlawfulness of their
conduct was clearly established at the time.” District
of Columbia v. Wesby, ___ U.S. ___, 138 S. Ct. 577, 589,
199 L.Ed.2d 453 (2018) (internal quotation marks

7a
omitted). Courts are “permitted to exercise their sound
discretion in deciding which of the two prongs of the
[QI] analysis should be addressed first in light of the
circumstances in the particular case at hand.” Pearson v. Callahan, 555 U.S. 223, 236, 129 S.Ct. 808, 172
L.Ed.2d 565 (2009).
The plaintiff has the burden to point out the
clearly established law. Delaughter v. Woodall, 909 F.3d
130, 139 (5th Cir. 2018). “Clearly established law is determined by controlling authority—or a robust consensus of persuasive authority—that defines the contours
of the right in question with a high degree of particularity.” Id. (internal quotation marks omitted). “This
means the contours of the right must be sufficiently
clear that a reasonable official would understand that
what he is doing violates that right, although it is
not necessary for controlling precedent to have held
that the official’s exact act was unlawful.” Id. at 139-40
(internal quotation marks omitted). Ultimately, “[t]he
central concern is whether the official has fair warning
that his conduct violates a constitutional right.” Id. at
140.
B.
We conclude, at the second prong, that the right at
issue was not clearly established, so White is entitled
to QI. It thus is unnecessary for us to reach the more
complicated issue of whether a rights violation occurred at the first prong. See Callahan, 555 U.S. at 236,
129 S.Ct. 808.

8a
At the time White allegedly violated plaintiffs’
rights—March 2016, at the latest—this court’s jurisprudence was ambiguous regarding whether First
Amendment liability could attach to a public official
who did not possess final decisionmaking authority.5
Because White was not a final decisionmaker, it was
not clearly established that he could be liable for his
recommendation to the BESE. Accordingly, he is entitled to QI.
AFFIRMED.

5

See, e.g., Sims v. City of Madisonville, 894 F.3d 632, 641
(5th Cir. 2018) (per curiam) (holding that caselaw had not clearly
established “whether First Amendment liability can attach to a
public official who did not make the final employment decision”);
Pennypacker v. City of Pearl, 689 F. App’x 332, 332 (5th Cir. 2017)
(per curiam) (“It is not clearly established in this circuit whether
[non-final decisionmakers] may be held personally liable for First
Amendment retaliation under § 1983.”). To be sure, after Sims,
the law is ‘no longer . . . ‘unsettled’ in this area,” and we know
that “individual liability for a government official who violates
constitutional rights, including First Amendment rights, turns on
traditional tort principles of ‘but-for’ causation.” Sims, 894 F.3d
at 639, 641. But the QI question here turns on whether the law
was clearly established.

9a
2018 WL 4387620
United States District Court, M.D. Louisiana.
Aleashia CLARKSON, et al.
v.
John WHITE
CIVIL ACTION NO.: 17-00125-BAJ-RLB
|
Signed 09/14/2018
Attorneys and Law Firms
Joseph Arthur Smith, IV, J. Arthur Smith, III, Smith
Law Firm, Baton Rouge, LA, for Aleashia Clarkson, et
al.
Theresa Cassidy Phillips, LaToya Danielle Jordan,
Leeanne Jenise Sharlow, Jeffery A. Wheeler, II, Office
of the Louisiana Attorney General, Caleb Roy Schmidt,
Baton Rouge, LA, for John White.
RULING AND ORDER
BRIAN A. JACKSON, JUDGE
Before the Court is the Motion for Summary
Judgment (Doc. 28) filed by Defendant, John White.
Plaintiffs oppose the motion. (Doc. 41). Oral argument
is not necessary. For the reasons that follow, the motion
is GRANTED and the action is DISMISSED.

10a
I.

BACKGROUND

Plaintiffs, Aleshia Clarkson and Kingdom Builders Community Development Corporation (“Kingdom
Builders”) bring this case for First Amendment religious retaliation under the United States Constitution
and Louisiana Constitution. Defendant is Louisiana
State Superintendent of Education John White, in his
individual capacity. (Doc. 1 at p. 1).
In June 2015, Kingdom Builders submitted an application to operate a charter school to the Lafayette
Parish School Board, which was denied. (Doc. 28-2 at
¶ 4). Kingdom Builders appealed this decision to the
Louisiana Board of Elementary and Secondary Education (“BESE”). (Id. at ¶ 5). In connection with this appeal, both the Louisiana Department of Education
(“LDE”) and a third-party evaluator contracted by the
LDE, SchoolWorks, L.L.C., evaluated Kingdom Builders’ application. (Id. at ¶ 6). SchoolWorks recommended
that BESE approve the application, while LDE, through
Superintended [sic] White, recommended that the application be denied. (Id. at ¶¶ 6-7). Superintendent
White’s primary concern was that, approximately
three years prior, while appearing on the reality television show Supernanny, Clarkson had expressed a
public opinion in favor of corporal punishment.
Following the conflicting reports, BESE deferred
ruling on the appeal, and requested that LDE hire an
independent third party to review the application and
address LDE’s concerns. (Doc. 9-3 at p. 18). LDE contracted with Transcendent Legal to conduct the review

11a
ordered by BESE. (See Doc. 9-5 at p.2). Transcendent
Legal’s report focused on whether Clarkson possessed
“the professional judgment necessary to open and lead
a high-performing charter school.” (Id. at p. 3). Transcendent Legal ultimately concluded that, based on
Clarkson’s participation on the Supernanny program,
she did not meet all the expectations of professional
norms. (Doc. 9-5 p. 14). Specifically, it found, inter alia,
that “[t]he public sharing of a very private moment
indicates that, at the time, . . . Clarkston did not safeguard the individual freedom of privacy of the children.”
(Id. at p. 13). Further, the report found that Clarkson’s
participation on the show demonstrated that she
“lacks an understanding of the backgrounds and cultures of all students and staff members.” (Id. at p. 14).
Ultimately, BESE denied Plaintiffs’ application. (Doc.
28-2 at ¶ 11).
II.

LEGAL STANDARD

Pursuant to the Federal Rules of Civil Procedure,
“[t]he court shall grant summary judgment if the movant shows that there is no genuine dispute as to any
material fact and the movant is entitled to judgment
as a matter of law.” Fed. R. Civ. P. 56(a). In determining
whether the movant is entitled to summary judgment,
the court views the facts in the light most favorable to
the non-movant and draws all reasonable inferences in
the non-movant’s favor. Coleman v. Hous. Indep. Sch.
Dist., 113 F.3d 528, 533 (5th Cir. 1997).

12a
After a motion for summary judgment is filed, the
non-movant “must set forth specific facts showing
there is a genuine issue for trial.” Anderson v. Liberty
Lobby, Inc., 477 U.S. 242, 250 (1986) (internal citations
omitted). “A genuine issue of material fact exists when
the evidence is such that a reasonable jury could return a verdict for the non-moving party.” Austin v.
Kroger Tex., L.P., 846 F.3d 326, 328 (5th Cir. 2017)
(quoting Gates, 537 F.3d at 417). At this stage, however,
the court does not evaluate the credibility of witnesses,
weigh the evidence, or resolve factual disputes. Int’l
Shortstop, Inc. v. Rally’s, Inc., 939 F.2d 1257, 1263 (5th
Cir. 1991).
On the other hand, the non-movant’s burden is not
satisfied by some metaphysical doubt as to the material facts, or by conclusory allegations, unsubstantiated assertions, or a mere scintilla of evidence. Little v.
Liquid Air Corp., 37 F.3d 1069, 1075 (5th Cir. 1994) (internal quotations omitted). Summary judgment is appropriate if the non-movant “fails to make a showing
sufficient to establish the existence of an element essential to that party’s case.” Celotex Corp. v. Catrett,
477 U.S. 317, 322 (1986). In other words, summary
judgment will lie only “if the pleadings, depositions,
answers to interrogatories, and admissions on file,
together with affidavits if any, show that there is no
genuine issue as to any material fact, and that the
moving party is entitled to judgment as a matter
of law.” Sherman v. Hallbauer, 455 F.2d 1236, 1241
(5th Cir. 1972).

13a
III. DISUSSION [sic]
The state advances several arguments why Plaintiffs’ claims cannot succeed, but the Court need not address each one because the Court ultimately concludes
that Plaintiffs have failed to state a valid claim for retaliation.
The First Amendment prohibits the government
from taking adverse “action against an individual in
retaliation for the exercise of protected speech.” Cripps
v. Louisiana Dep’t of Agric. & Forestry, 819 F.3d 221,
229 (5th Cir. 2016). Article I, § 7 of the Louisiana Constitution provides that “[n]o law should curtail or restrain the freedom of speech or of the press. Every
person may speak, write, and publish his sentiments
on any subject, but is responsible for abuse of that freedom.”
When an ordinary citizen, as opposed to a government employee, alleges retaliation on the basis of her
First Amendment rights, she “must show that (1) [she
was] engaged in constitutionally protected activity,
(2) the defendants’ actions caused [her] to suffer an injury that would chill a person of ordinary firmness
from continuing to engage in that activity, and (3) the
defendants’ adverse actions were substantially motivated against the plaintiff[’s] exercise of constitutionally protected conduct.” Keenan v. Tejeda, 290 F.3d 252,
258 (5th Cir. 2002).
Under Louisiana law, charter school may first submit its application to the local school board with jurisdiction over the area where the school is to be located.

14a
La. Rev. Stat. ann. § 17:3983(A)(2)(a)(i). If the charter
school’s application is denied by the local board, it may
then appeal to BESE. Id. § 17:3983(A)(2)(a)(i). As Superintendent of Education, White “[m]akes recommendations on contracts and agreements to be entered into
by [BESE].” Id. § 17:3981. However, only BESE maintains the authority to approve or deny the application
for charter schools. Id. § 17:3983(A)(2)(c). According to
the Louisiana Supreme Court, BESE maintains “the
constitutional power to determine education policy for
the public schools of the state.” Bd. Of Elementary and
Secondary Ed. v. Nix., 347 So. 2d 147, 150 (La. 1977).
Here, Plaintiffs fail on the second prong because
they have not shown that Superintendent White
caused them to suffer an injury that would chill a person of ordinary firmness from engaging in a constitutionally protected activity. BESE, not Superintendent
White, voted to deny Plaintiffs’ appeal. White, who is
not a member of BESE, did not have a vote on whether
to deny Plaintiffs’ application. See Cripps, 819 F.3d
at 230. Pursuant to Louisiana law, White’s role was
merely advisory.1 After Superintendent White raised
1

Plaintiffs raise the “cat’s paw theory,” whereby a person
with retaliatory animus used the ultimate decision maker to bring
about retaliation. See Zamora v. City of Houston, 798 F.3d 326,
331 (5th Cir. 2015). Although there is no “absolute bar on First
Amendment liability for those who are not final decisionmakers. . . . N[either] [is] the imputation principles of cat’s paw liability applicable to an effort to hold a nondecisionmaker liable.”
Sims v. City of Madisonville, 894 F.3d 632, 641 (5th Cir. 2018).
Plaintiffs seeking to establish causation in a 42 U.S.C. § 1983 case
must do so through traditional principles of causation. Id.

15a
his concerns, BESE did not vote to deny Plaintiffs’ appeal, but rather it deferred ruling until a third party
could analyze the concerns of Superintendent White.
Moreover, the Lafayette Parish School Board had independently denied Plaintiffs’ initial application. There
is no evidence in the record to show that Superintendent White was involved with that earlier decision.
Under these circumstances, Plaintiffs have failed to establish a genuine issue of material fact regarding the
causation element of Plaintiffs’ First Amendment retaliation claim against Superintendent White.
“As summary judgment is proper as to Plaintiffs’
First Amendment claims, summary judgment is also
proper on Plaintiffs’ Article I, § 7 state law claims.” See
Cripps, 819 F.3d at 230.
IV. CONCLUSION
Accordingly,
IT IS ORDERED that the motion for summary
judgment is GRANTED and that the above-captioned
action is DISMISSED.

